                      SEMIANNUAL
                      REPORT TO THE
                      CONGRESS

                      OCTOBER 1, 2013 TO
                      MARCH 31, 2014




OFFICE OF INSPECTOR GENERAL

            for the
  RAILROAD RETIREMENT BOARD

                       UNITED STATES RAILROAD RETIREMENT BOARD


                                  OFFICE OF INSPECTOR GENERAL



                                           April 30, 2014

The Honorable Michael S. Schwartz, Chairman
Railroad Retirement Board
844 North Rush Street
Chicago, Illinois 60611-2092

Dear Mr. Schwartz:

I am pleased to submit our Semiannual Report to the Congress. This report provides
a descriptive summary of our activities and accomplishments during the period of
October 1, 2013 through March 31, 2014. This report is submitted in accordance with
Section 5 of the Inspector General Act of 1978, as amended. The Act requires that
you transmit this report, along with any comments you may wish to make, to the
appropriate Congressional committees and subcommittees within 30 days.

During this reporting period, the Office of Inspector General issued a seven-day letter
to Congress regarding particularly serious or flagrant deficiencies in the
administration of the RRB's occupational disability program. We also:

   •	 completed our audit of the RRB’s fiscal year 2013 financial statements;
   •	 published our “Letter to Management” detailing matters related to internal
      control identified during the financial statement audit;
   •	 prepared our statement on Management and Performance Challenges Facing
      the Railroad Retirement Board;
   •	 published the results of our annual evaluation of the agency’s information
      security program;
   •	 audited dual spouse annuity adjustments;
   •	 audited the agency’s compliance with the Improper Payments Elimination and
      Recovery Act of 2010.

Our criminal investigators achieved 3 arrests, 43 criminal convictions, 15 indictments
and informations, 8 civil judgments, and more than $266 million in financial
accomplishments resulting from OI’s investigative work, including joint investigations.

We appreciate the ongoing assistance extended to our staff during the performance
of their duties and look forward to resolving program integrity issues within the
agency’s disability program.
                                                 Sincerely,

                                                  Original Signed by
                                                  Martin J. Dickman
                                                  Inspector General
844 N RUSH STREET CHICAGO IL 60611-2092	                           Printed on recycled paper
                                                 Table of Contents


INTRODUCTION............................................................................................................. 1

   Railroad Retirement Board .......................................................................................... 1

   Board Members ........................................................................................................... 1

   Office of Inspector General.......................................................................................... 1

EXECUTIVE SUMMARY................................................................................................. 3

   Office of Audit .............................................................................................................. 3

   Office of Investigations ................................................................................................ 4

OCTOBER 1, 2013 – MARCH 31, 2014 ACCOMPLISHMENTS .................................... 5

   Office of Audit .............................................................................................................. 5

      Opinion on the Financial Statements ....................................................................... 5

      Report on Internal Control........................................................................................ 6

      Report on Compliance with Laws and Regulations .................................................. 6

      Material Weaknesses and Significant Deficiency..................................................... 6

      Management and Performance Challenges Facing the Railroad Retirement Board 7

      Fiscal Year 2013 Audit of Information Security at the Railroad Retirement Board ... 7

      Audit of the Railroad Retirement Act Dual Spouse Annuity Adjustments ................. 9

      Audit of the Railroad Retirement Board’s Fiscal Year 2013 Compliance with the 

      Improper Payments Elimination and Recovery Act of 2010 ................................... 10

      Management Decisions and Implementation ......................................................... 12

   Office of Investigations .............................................................................................. 13

      Current Caseload ................................................................................................... 13

      Caseload and Potential Fraud Loss by Case Type ................................................ 14

      Investigative Accomplishments .............................................................................. 15

   Representative Investigations.................................................................................... 16

      Disability Investigations.......................................................................................... 16

      Unemployment-Sickness Insurance Investigations ................................................ 17

      Retirement-Survivor Benefits and Representative Payee Investigations ............... 19

      Railroad Medicare Investigations ........................................................................... 20

      Civil Enforcement Results ...................................................................................... 22

   Hotline Contacts ........................................................................................................ 23

                                              Table of Contents

OTHER OVERSIGHT ACTIVITIES ............................................................................... 24

   American Recovery and Reinvestment Act of 2009................................................... 24

OPERATIONAL ISSUES............................................................................................... 24

   National Railroad Retirement Investment Trust ......................................................... 25

LEGISLATIVE & REGULATORY REVIEW ................................................................... 25

APPENDICES ............................................................................................................... 26

   Appendix A – Office of Inspector General Reports and Other Publicly Available 

   Papers Issued............................................................................................................ 27

   Appendix B – Audit Reports with Questioned Costs or with Recommendations That

   Funds be Put to Better Use ....................................................................................... 28

   Appendix C – Report on Receivables, Waivers, and Recoveries .............................. 29

   Appendix D – Significant Matters............................................................................... 31

   Appendix E – Peer Reviews ...................................................................................... 33

   Appendix F – Reports Prepared by Management...................................................... 34

   Appendix G – Reporting Requirements ..................................................................... 41

   Appendix H – Acronyms ............................................................................................ 42

   Appendix I – Legal References.................................................................................. 43

       Office of Inspector General for the Railroad Retirement Board

      INTRODUCTION
      Railroad Retirement Board
The Railroad Retirement Board (RRB) is an independent agency in the executive
branch of the Federal government. The RRB administers comprehensive disability,
retirement-survivor, and unemployment-sickness insurance benefit programs for the
nation's railroad workers and their families. These programs are codified under the
Railroad Retirement Act (RRA) and the Railroad Unemployment Insurance Act (RUIA),
respectively. During fiscal year (FY) 2013, the RRB paid approximately $11.8 billion in
retirement-survivor and unemployment-sickness benefits to roughly 595,000
beneficiaries.

The RRB also has administrative responsibilities for certain benefit payments under the
Social Security Act, including the administration of Medicare benefits for qualifying
railroad workers and dependents. Pursuant to statutory authority, the RRB, in
consultation with the Centers for Medicare and Medicaid Services, awards and monitors
the single nationwide Railroad Medicare Part B Services contract. During FY 2013, the
Railroad Medicare contractor paid approximately $846 million in Part B medical
insurance benefits on behalf of roughly 450,000 Railroad Medicare beneficiaries.

      Board Members

The RRB’s Board consists of three members who are appointed, with the advice and
consent of the Senate, by the President of the United States. One member is appointed
upon the recommendation of railroad employers; another member is appointed upon the
recommendation of railroad labor organizations; and the third, who is the Chairman, is
appointed to represent the public’s interest. Board Members’ terms are five years in
length and expire in staggered years.

      Office of Inspector General

The Railroad Retirement Solvency Act of 1983 amended the RRA to provide for an
Office of Inspector General (OIG) for the RRB. The 1988 amendments to the Inspector
General Act added the RRB to the list of covered agencies.




                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │P a g e 1

      Office of Inspector General for the Railroad Retirement Board

The RRB’s Inspector General is a Presidential Appointee, with Senate confirmation,
who serves as an independent and objective voice to the RRB Board Members and the
Congress. It is the Inspector General’s responsibility to promote economy, efficiency,
and effectiveness in the RRB’s programs and operations. To that end, the OIG conducts
audits/evaluations, management reviews, and inspections of the RRB’s programs and
operations. As a product of its efforts, the OIG offers recommendations for agency
improvement to RRB management. The OIG also identifies and investigates cases of
waste, fraud, and abuse in the RRB’s programs and operations. The OIG works closely
with Federal prosecutors and makes the appropriate referrals for criminal prosecution,
civil prosecution, monetary recovery, or administrative sanctions.

The OIG has three operational components: the immediate Office of the Inspector
General, the Office of Audit, and the Office of Investigations. The OIG conducts
operations from several locations including the RRB headquarters in Illinois and
investigative field offices in California, Florida, Pennsylvania, New York, Texas, and
Virginia. These field offices provide an increased investigative presence which aide in
the effective and efficient coordination of joint investigations with other Inspector
General offices and law enforcement agencies.

      Long Island Rail Road Occupational Disability Fraud
      Investigation
During this semiannual reporting period, two former Long Island Rail Road (LIRR)
employees were convicted by a Federal jury of conspiracy and fraud charges stemming
from their fraudulent receipt of RRB occupational disability benefits. With these
convictions, all 33 individuals charged in connection with the LIRR fraud scheme have
either pleaded guilty or been convicted at trial. These results are discussed further on
page 16. This investigation remains ongoing.




                        Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │Pa g e 2

       Office of Inspector General for the Railroad Retirement Board

EXECUTIVE SUMMARY
       Office of Audit

The Office of Audit (OA) conducts financial, performance, and compliance audits and
evaluations/inspections of the RRB’s programs and operations. During this reporting
period, the OA:

   •	 completed its annual audit of the RRB’s comparative financial statement for the
      FYs ended September 30, 2013 and 2012 along with the related reports on
      internal control and compliance;
   •	 published their “Letter to Management” detailing matters related to internal
      control identified during the financial statement audit;
   •	 prepared the Inspector General’s statement of Management and Performance
      Challenges Facing the Railroad Retirement Board;
   •	 published the results of their annual audit of the RRB’s information security
      program;
   •	 audited dual spouse annuity adjustments; and
   •	 audited the RRB’s compliance with the Improper Payments Elimination and
      Recovery Act of 2010.

OA’s activities, during this reporting period, are discussed in further detail on pages 5
through 11 of this report. All publicly available reports are available on our website at
www.rrb.gov/oig.




                         Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │P a g e 3

        Office of Inspector General for the Railroad Retirement Board

         Office of Investigations
The Office of Investigations (OI) focuses its efforts on identifying, investigating, and
presenting RRB benefit fraud cases for prosecution. OI conducts investigations
throughout the United States relating to:

    •	 the fraudulent receipt of RRB disability, unemployment-sickness, and retirement-
       survivor benefits;
    •	 Railroad Medicare fraud;
    •	 false reporting by railroad employers; and
    •	 criminal violations and misconduct by RRB personnel.

Investigative efforts may result in criminal convictions; civil judgments and penalties;
administrative recovery of program benefit funds; and/or administrative sanctions.

From October 1, 2013 through March 31, 2014, OI achieved:

    •    3 arrests;
    •    15 indictments and informations;
    •    43 convictions;
    •    8 civil judgments;
    •    40 referrals to the Department of Justice; and
    •    almost $266 million 1 in financial accomplishments.

Defendants, in the aggregate, were sentenced to more than 90 years of prison, over
115 years of probation, and 150 hours of community service. Additional details
regarding OI’s activities are discussed on pages 16 through 22.




1 The total amount of financial accomplishments reflect fraud amounts related to programs administered exclusively by
the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in the
disposition resulting from the investigation.



                              Semiannual Report to the Congress

                           October 1, 2013 – March 31, 2014 │Pa g e 4

       Office of Inspector General for the Railroad Retirement Board

      OCTOBER 1, 2013 – MARCH 31, 2014

      ACCOMPLISHMENTS

      Office of Audit
Congress established the OIG to provide independent oversight of the RRB. Within the
OIG, OA’s mission is to promote economy, efficiency, and effectiveness in the
administration of the RRB’s programs and operations; and to detect and prevent fraud,
waste, and abuse. Through the Inspector General, OA keeps Board Members and the
Congress informed of current and potential problems and deficiencies in the RRB’s
operations. OA also tracks the agency’s progress towards corrective action.

Brief summaries of all audits completed during this semiannual reporting period follow.

      Opinion on the Financial Statements
During this reporting period, OA completed its annual audit of the RRB’s comparative
financial statements for the FYs ended September 30, 2013 and 2012. For reasons
explained below, OA was not able to obtain sufficient appropriate audit evidence
regarding the financial position of the RRB and, accordingly, did not express an opinion
(“disclaimed opinion”) regarding the RRB’s financial statements.

Recent group financial statement auditing standards promulgated by the American
Institute of Certified Public Accountants (AICPA), requires auditors to have ongoing
communication, including evidentiary and assessment reviews, with component auditors
(i.e. independent auditors hired by the National Railroad Retirement Investment Trust
(NRRIT)). To comply with these standards, OA contacted the NRRIT’s Chair requesting
direct communication with, and cooperation from their component auditors. The RRB’s
Chief Financial Officer responded on behalf of the NRRIT and stated that they are not
subject to Federal audit requirements. Although the RRB is correct that the NRRIT is
not a Federal entity and directly subject to Federal audit requirements, the OIG
concluded that the AICPA’s standards apply to all component entities that prepare
audited financial statements both Federal and Non-Federal. Therefore, the OIG is not
able to comply with the new AICPA auditing standards (section 600) and are compelled
to disclaim on the RRB’s financial statements beginning this year and in future years
until legislative changes are made regarding the relationship between the OIG, the
NRRIT, and its auditors.



                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │P a g e 5

      Office of Inspector General for the Railroad Retirement Board

      Report on Internal Control

In planning and performing the audit of the agency’s financial statements, OA
considered the RRB’s internal control over financial reporting and compliance. OA did
this to determine its procedures for auditing the financial statements and to comply with
Office of Management and Budget (OMB) audit guidance, and not to express an opinion
on internal control. OA reported the following.

   •	 With respect to previously reported control deficiencies, the RRB has made
      progress strengthening its information security program but this effort is not yet
      complete and remains an area of material weakness.

   •	 The previously reported material weakness for budgetary reporting is now being
      reported as a significant deficiency since errors found during FY 2013 were less
      severe than a material weakness.

      Report on Compliance with Laws and Regulations

OA’s audit of the RRB’s financial statements included tests of compliance with
selected provisions of laws and regulations, including laws governing the use of
budget authority, and other laws and regulations that could have a direct and material
impact on the RRB’s basic financial statements.

OA’s tests of compliance with selected provisions of laws and regulations disclosed
no instances of non-compliance that are reportable under either U.S. generally
accepted government auditing standards or OMB guidance. The objective of the
audit; however, was not to provide an opinion on overall compliance with laws and
regulations and OA did not express an opinion.

      Material Weaknesses and Significant Deficiency

During OA’s audit of the agency’s financial statements for the FYs ended
September 30, 2013 and 2012, they identified material weaknesses in information
technology security (risk management framework) and information technology
security (configuration management); and a significant deficiency in budgetary
reporting.

The agency is working to address these identified areas.

                        Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │Pa g e 6

       Office of Inspector General for the Railroad Retirement Board

       Management and Performance Challenges Facing the
       Railroad Retirement Board
OA annually identifies Management and Performance Challenges Facing the Railroad
Retirement Board and reports on them in the RRB’s Performance and Accountability
Report. This statement is prepared pursuant to the Reports Consolidation Act of 2000
and the requirements of OMB Circular A-136. This Circular requires OIGs to identify the
most serious management challenges facing their parent agency and to briefly assess
the agency’s progress in addressing those challenges.

OA’s identification of challenges facing RRB management is based on recent audits and
evaluations; changes in auditing standards impacting the NRRIT; financial management
system changes; current LIRR investigative developments; and congressional directives
to prevent improper payments and fraud in government programs. The following
challenges were identified during FY 2013:

   •	 the impact of AICPA group auditing standards upon the RRB’s financial

      statements;

   • migration to financial management integrated system;

   • occupational disability program integrity;

   •	 information technology security;
   •	 budgetary reporting;
   • preventing and detecting improper payments; and

   • oversight of Railroad Medicare.


       Fiscal Year 2013 Audit of Information Security at the
       Railroad Retirement Board

Background

The OIG conducted an audit of information security at the RRB for FY13, which is
mandated by the Federal Information Security Management Act of 2002 (FISMA).

Objectives

The objectives of this audit included testing the effectiveness of the information security
policies, procedures, and practices of a representative subset of the agency’s
information systems; assessing agency compliance with FISMA requirements and

                         Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │P a g e 7

      Office of Inspector General for the Railroad Retirement Board

related information security policies, procedures, standards and guidelines; and
preparing a report on selected elements of the agency’s information security program in
compliance with the Department of Homeland Security’s FY 2013 FISMA reporting
instructions.

Findings

OA’s audit determined that the RRB continues to make progress in implementing an
information security program that meets the requirements of FISMA; yet a fully effective
security program has not been achieved. The significant deficiencies in the internal
control structure over the review of the agency’s contractor deliverables associated with
the risk management framework, and the security configuration management program
remain unresolved. We also noted some lesser deficiencies in the RRB’s security
program.

Recommendations

In total, OA made seven detailed recommendations to RRB management related to the
following areas.

   •	 Strengthening Configuration Management by developing baseline configuration
      settings and implementing automated capabilities to identify deviations from
      baseline configurations settings.
   •	 Ensuring non-user accounts are reviewed periodically including updating the
      accounts as necessary to ensure account names and descriptions accurately
      reflect the purpose of the account.
   •	 Identifying all key data fields for effective management in the agency-wide Plan
      of Action and Milestones and strengthening controls to ensure all key fields are
      required data fields and consistently completed.
   •	 Improving the security training process by implementing controls to ensure all
      contractors complete security awareness training.
   •	 Updating policies and procedures for role-based training for RRB employees and
      contractors.




                        Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │Pa g e 8

       Office of Inspector General for the Railroad Retirement Board

Management’s Responses

Agency management concurred with all recommendations.

       Audit of the Railroad Retirement Act Dual Spouse
       Annuity Adjustments
Background

OA conducted an audit to determine whether spouse annuities were appropriately
adjusted for entitlement to dual railroad benefits.

Findings

OA’s audit determined that there were instances of dual spouse annuities that had not
been appropriately adjusted. A statistical sample of 114 dual spouse annuity cases
identified 3 sample cases that contained a payment error for the actual rate. Projecting
the statistical sample to the population, there are at least 56 spouse annuities that are
not appropriately adjusted. The estimated monetary impact of these improper payments
is approximately $1.8 million.

In addition, during preliminary data analysis, OA identified five cases where the spouse
annuities were not appropriately adjusted. These five cases were identified outside of
the statistical sample. The monetary impact of the improper payments for the five cases
is estimated to be approximately $866,000.

The total financial impact of all errors is estimated to be approximately $2.7 million.

Key Recommendations

OA recommended that agency management:

   •	 take action to correct the spouse annuities for the error cases cited, and to
      establish overpayments and/or issue accruals when necessary; and

   •	 provide additional training to claims examiners concerning spouse annuity

      adjustments.





                         Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │P a g e 9

      Office of Inspector General for the Railroad Retirement Board

Management’s Response

Agency management agreed to take corrective action on all recommendations.

      Audit of the Railroad Retirement Board’s Fiscal Year
      2013 Compliance with the Improper Payments
      Elimination and Recovery Act of 2010
Background

OA conducted an audit of the RRB’s FY13 compliance with the Improper Payments
Elimination and Recovery Act of 2010 (IPERA) which amended the Improper Payment
Information Act of 2002.

Findings

OA determined that:

   1.	 the RRB complied with the applicable IPERA reporting requirements; however,
       the risk assessment process needs improvement;
   2.	 the RRB’s IPERA reporting was complete and OA did not find any inaccuracies;
       and
   3.	 the RRB reduced improper payments for the RRA and RUIA benefit payment
       programs.

Key Recommendation

OA recommended that agency management identify all programs they administer
(including Railroad Medicare) during the risk assessment process for improper
payments.

Management’s Response

Agency management concurred with our recommendation. They stated that they will
include a discussion about the Medicare program in the risk assessment section of the
FY 2014 Performance and Accountability Report.



                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │Pa g e 10

       Office of Inspector General for the Railroad Retirement Board

Other Matters – Future Improper Payment Estimates

We found that the agency did not include improper annuities which were paid to LIRR
occupational disability annuitants in its improper payment estimates for this reporting
period because the amount of overpayments had not been established. As
investigations were not concluded, this did not affect the agency’s compliance with
IPERA for FY 2013. Since the OIG considers these fraudulent annuities to be improper
payments, the agency needs to consider them in future improper payment estimates for
the RRA benefit payment program.

The RRB’s future improper payment estimates will also be impacted if the agency’s risk
assessment concludes that the Railroad Medicare Program is susceptible to significant
improper payments.




                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │P a g e 11

      Office of Inspector General for the Railroad Retirement Board

      Management Decisions and Implementation
As part of its oversight activities, the OIG tracks the agency’s implementation of audit
recommendations. Additionally, OMB Circular No. A-50 (Revised) and the Inspector
General Act Amendments of 1988 require the reporting of management decisions and
corrective actions for all audit recommendations.

                                Management Decisions
           Requiring Management Decision on October 1, 2013               5
           Pending Management Decision for New
                                                                          0
           Recommendations
           Management Decision on Previous Recommendations                0
           Recommendations Pending Management Decision on
                                                                          5
           March 31, 2014



                                   Corrective Action
           Recommendations Requiring Action on October 1, 2013           205
           Recommendations Issued During Reporting Period                 13
           Corrective Actions Completed During Reporting Period           29
           Recommendations Rejected During Reporting Period               1
           Final Actions Pending on March 31, 2014                       188




                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │Pa g e 12

         Office of Inspector General for the Railroad Retirement Board

         Office of Investigations

OI's primary objective is to identify, investigate, and refer for prosecution or monetary
recovery action cases of waste, fraud, or abuse in the RRB’s programs. OI also seeks
to prevent and deter program fraud by reporting systemic weaknesses identified through
investigative work. In order to maximize the impact of its resources, OI continues to
pursue cooperative investigative activities in coordination with other Inspectors General
such as the Office of Inspector General for the Department of Health and Human
Services and other law enforcement agencies, such as the Federal Bureau of
Investigation and the U.S. Secret Service.

         Current Caseload

During this semiannual reporting period, OI opened 91 new cases.

                                       Investigative Caseload Data
           Investigative Cases Open as of October 1, 2013                                        373
           Investigative Cases Opened During Reporting Period                                     91
           Investigative Cases Closed During Reporting Period                                    138
           Investigative Cases Open as of March 31, 2014                                         326

As of March 31, 2014, OI’s investigative case load totaled 326 matters which represent
approximately $224 million in potential fraud losses. 2 The chart located on the next
page reflects the distribution of OI cases and potential fraud losses by RRB major
program area.




2 This reflects potential fraud amounts related to programs administered exclusively by the RRB and potential fraud
amounts from other Federal programs such as Medicare or Social Security which have been identified during OI’s joint
investigative work.



                              Semiannual Report to the Congress

                          October 1, 2013 – March 31, 2014 │P a g e 13

       Office of Inspector General for the Railroad Retirement Board

       Caseload and Potential Fraud Loss by Case Type

                   30 Cases

                   $1.3 Million


                                                       95 Cases
                                                       $1.3 Million
   49 Cases
   $2.5 Million
                                                                        Unemployment - Sickness
                                                                        Railroad Medicare
                                                                        Disability
                                                                        Retirement
                                                                        Other

 96 Cases
 $205.5 Million                                       56 Cases
                                                      $13.4 Million




Other case type is an amalgam of various types of cases involving matters such as misconduct by RRB
employees, threats against agency employees, false reporting by railroad employers, and others.




                           Semiannual Report to the Congress

                       October 1, 2013 – March 31, 2014 │Pa g e 14

         Office of Inspector General for the Railroad Retirement Board

         Investigative Accomplishments


                                                                           October 1, 2013 –
                                     Action
                                                                            March 31, 2014
               Referrals to the Department of Justice                                 40

               Indictments/Informations                                               15
               Arrests                                                                 3
               Convictions                                                            43
               Civil Complaints                                                        1
               Civil Judgments                                                         8
               Restitution and Fines 3                                        $178.4 Million
               Civil Damages and Penalties 4                                   $15.8 Million
               Investigative Recoveries 5                                      $71.6 Million
               Community Service Hours                                               150




3 The dollar amounts in this table reflect fraud amounts related to programs administered exclusively by the RRB and 

fraud amounts from other Federal programs such as Medicare or Social Security which were included in the disposition 

resulting from the investigation.

4 See above footnote.

5 RRB benefits that are overpaid due to fraud and can be recouped through RRB administrative recovery action are


expressed as investigative recoveries.




                              Semiannual Report to the Congress

                          October 1, 2013 – March 31, 2014 │P a g e 15

       Office of Inspector General for the Railroad Retirement Board

        October 1, 2013 – March 31, 2014

        Representative Investigations


        Disability Investigations

OI conducts fraud investigations relating to the RRB's disability program. Railroad
workers who are awarded an RRB disability annuity are subject to work restrictions and
earnings limitations. Disability benefit fraud often involves sophisticated schemes to
hide disqualifying work activities from the RRB.

During this semiannual reporting period, 11 individuals were sentenced in connection 

with the LIRR fraud prosecution. They received, in the aggregate, sentences totaling

almost 5 years of prison, 8 years of supervised release, 23 years of probation, more 

than 2 years of home confinement, and were ordered to pay almost $4.4 million in 

restitution, forfeiture, and special assessments. 6


In addition to the above LIRR related sentences, OI obtained 14 disability fraud 

convictions. The defendants received, in the aggregate, sentences totaling more than

28 years of prison, 28.5 years of probation, and were ordered to pay almost

$154.7 million in restitution and fines. 


Descriptions of representative cases completed during this reporting period follow.

        Two Former LIRR Employees Convicted of Conspiracy and
        Fraud Charges
A Federal jury convicted two former LIRR employees of conspiracy and fraud charges
stemming from their submission of fraudulent RRB disability applications. The first
defendant, a former maintenance foreman, was sentenced to 37 months of prison,
3 years of supervision, and more than $125,000 in forfeiture and restitution. The second
defendant, a former conductor, has not been sentenced.




6Due to administrative constraints, these LIRR sentences are not reflected in OI’s statistics for this
semiannual reporting period and will be reported in our April 1, 2014 through September 30, 2014 report.

                            Semiannual Report to the Congress

                        October 1, 2013 – March 31, 2014 │Pa g e 16

       Office of Inspector General for the Railroad Retirement Board


       Two Couples Guilty in Conspiracy to Defraud the RRB
An OI Special Agent investigated an RRB disability annuitant who owned and operated
an automotive parts store with his ex-spouse and another couple. During the course of
the investigation, it was revealed that, for a period of 11 years, they had conspired to
hide the annuitant’s wages from the RRB by reporting his earnings under his
ex-spouses’ social security number.

This case was referred to the United States Attorney’s Office for the Eastern District of
Michigan which filed indictments against all four owners. The annuitant and his
ex-spouse subsequently pled guilty to conspiring to defraud the United States, making
or causing false information to be provided to the Social Security Administration, and
defrauding the RRB. The other couple was convicted by a Federal jury for their roles in
the conspiracy. The defendants, in the aggregate, were sentenced to more than 9 years
of prison and more than $1.1 million in restitution.

      Unemployment-Sickness Insurance Investigations

Unemployment-Sickness Insurance benefit fraud typically involves individuals claiming
and receiving Unemployment Insurance (UI) or Sickness Insurance (SI) benefits while
working or collecting state administered unemployment benefits. OI receives the
majority of these cases from the RRB’s Disability, Sickness, and Unemployment
Benefits Division as a result of information developed through state wage matching
programs. The RRB conducts computer wage matches with various states to identify
claimants who may have collected RRB administered UI or SI benefits on the same
days they received wages from a private employer or on the same days they received
state administered unemployment benefits.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 89% of OI’s current UI fraud cases involve extended
UI benefits.

During this reporting period, OI obtained 18 convictions and 7 civil judgments for UI-SI
fraud cases. Defendants in these cases received, in the aggregate, more than 23 years
of prison, 30 years of probation, 50 hours of community service, and were ordered to
pay almost $1.4 million in restitution, fines, and civil damages/penalties.



                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │P a g e 17

      Office of Inspector General for the Railroad Retirement Board

The following are examples of UI-SI cases completed during this reporting period.

       UI Claimant Prosecuted in State Court

OI investigated an UI claimant based upon an agency referral. OI’s investigation
determined that during the period of August 2011 through June 2012, the claimant
applied for RRB UI benefits on the same days he was working and being paid by a
private employer. The claimant submitted a total of 21 false claims and collected almost
$12,000 in fraudulent UI benefits.

This case was referred to the Lucas County Prosecutor’s Office in Toledo, Ohio. The
claimant subsequently pled no contest and was found guilty of workers’ compensation
fraud. He was sentenced to a 30 day work release program, 3 years of probation, and
ordered to pay full restitution.

       Fugitive Captured and Sentenced to Twenty-Three Years of
       Prison
OI investigated allegations that a railroad worker fraudulently collected SI benefits by
falsely claiming that she was unable to work due to injuries suffered during a fall in her
home. After a two month long jury trial, prosecuted by the San Diego County District
Attorney’s Office, the railroad worker was convicted of 29 state felony counts for
defrauding the RRB’s sickness insurance program and several private insurance
companies.

The railroad worker failed to appear before the court on the day of the jury verdict and a
warrant was issued for her arrest. The railroad worker was subsequently captured in
Mexico and was extradited to the United States where she was sentenced to twenty-
three years of prison and ordered to pay more than $1 million in restitution, fines, and
penalties. This case was prosecuted by the District Attorney’s Office for the County of
San Diego, California.




                         Semiannual Report to the Congress

                     October 1, 2013 – March 31, 2014 │Pa g e 18

       Office of Inspector General for the Railroad Retirement Board

      UI Claimant Fails to Report Work and Earnings to the RRB

OI investigated an RRB claimant based upon an agency referral. OI’s investigation
determined that during the period of April 2009 through June 2010, the claimant applied
for RRB UI benefits on the same days he was working and being paid by a private
employer. The claimant submitted a total of 25 false claims and collected more than
$15,000 in fraudulent UI benefits.

This case was referred to the United States Attorney’s Office for the Eastern District of
Texas. The RRB claimant entered into a settlement agreement with the United States
Attorney’s Office agreeing to repay the full amount to settle charges under the False
Claims Act.

      Retirement-Survivor Benefits and Representative Payee
      Investigations
The RRA provides retirement-survivor benefits for qualified railroad workers and their
families. RRB retirement-survivor benefit fraud typically involves:

   •	 an individual failing to report information to the RRB that may disqualify the
      annuitant from receiving benefits;
   •	 instances of theft or fraudulent cashing of retirement benefit checks by someone
      other than the authorized RRB annuitant; or
   •	 an individual designated to receive RRB benefits on behalf of an RRB annuitant
      fraudulently using the funds for their own personal use.

During this reporting period, OI obtained four retirement benefit fraud convictions.
Defendants in these cases received, in the aggregate, 6 years of prison, 39 years of
probation, 100 hours of community service, and were ordered to pay more than $37,500
in restitution and fines.

The following are examples of retirement-survivor cases completed during this reporting
period.

      Annuitant’s Daughter Indicted in Three Counties
An RRB annuitant’s daughter was indicted in three Georgia counties for Forgery in the
First Degree, Exploitation of a Disabled Adult, Identify Theft, and Financial Transaction
Card Fraud for stealing her father’s benefits instead of paying his nursing home bills.

                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │P a g e 19

         Office of Inspector General for the Railroad Retirement Board

The daughter pled guilty to all counts and was sentenced to 2 years of prison, 18 years
of probation, and more than $33,000 in restitution. This case was handled by local
prosecutors in the State of Georgia.

         Annuitant’s Son Steals Over $217,000 in RRB Benefits
OI worked cooperatively with the Office of Inspector General for the Social Security
Administration to investigate Federal benefit fraud. The joint investigation revealed that
an RRB annuitant had passed away in November 1985; however, her death was never
reported and the RRB continued to issue annuity checks in her name until August 2012.
It was also determined that the son had cashed her Federal benefit checks and
converted the benefits for his own personal use.

This case was referred to the United States Attorney’s Office for the Eastern District of
Louisiana which filed a Bill of Information against the son. He pled guilty to Theft of
Government Funds and entered into a plea agreement with the U.S. Attorney’s Office.
He was sentenced to five years of probation and ordered to repay over $363,000 in
restitution to the RRB and the Social Security Administration.

         Railroad Medicare Investigations
During this reporting period, OI obtained six convictions and one civil judgment in
Railroad Medicare fraud cases. Defendants in these cases received, in the aggregate,
more than 32 years of prison, 18 years of probation, and were ordered to pay more than
$38 million in restitution, fines, and civil damages/penalties. 7

All of OI’s active Medicare cases are being worked jointly with the Office of Inspector
General for the U.S. Department of Health and Human Services, the Office of Inspector
General for the Office of Personnel Management, or other agencies responsible for
investigating health care fraud. Interagency cooperation is imperative to effective law
enforcement especially among agencies responsible for investigating the complexities
of health care fraud.

Descriptions of representative cases completed during this reporting period follow.




7 This total reflects the full amount of restitution, fines, and civil damages/penalties ordered. Since OI’s Railroad Medicare
fraud cases are joint investigations, the total dollar amount includes losses to other health care programs.

                                 Semiannual Report to the Congress

                             October 1, 2013 – March 31, 2014 │Pa g e 20

       Office of Inspector General for the Railroad Retirement Board

       Qui Tam Lawsuit Settled for $15.5 Million
OI Special Agents worked cooperatively as members of a multi-agency team
investigating allegations contained in a Qui Tam lawsuit filed in the District of New
Jersey and the Eastern District of New York. Agents were able to prove that the subject
medical provider performed and billed for procedures that were either excessive or
medically unnecessary in addition to violating anti-kickback regulations. Both United
States Attorney’s Offices subsequently intervened in this case and entered into a
settlement agreement with the provider for $15.5 million.

       Railroad Medicare Provider Prosecuted
OI initiated this investigation pursuant to a referral from the Office of Inspector General
for the Department of Health and Human Services. The subsequent joint investigation
revealed that a medical clinic had fraudulently billed a higher monetary reimbursement
code when shorter exams where actually performed.

This case was referred to the United States Attorney’s Office for the Southern District of
Georgia. The doctor pled guilty to a single count Information charging him with False
Claims and was sentenced to 33 months of prison, 3 years of supervised release, and
more than $440,000 in restitution.

       Medical Clinic Owner, Doctor, and Professional Medicare
       Beneficiary Sentenced for Conspiracy
This case was initiated based upon a referral from the Federal Bureau of Investigation.
A joint investigation revealed that a medical doctor, a clinic owner, and a Medicare
beneficiary conspired to violate anti-kickback regulations in order to bill Medicare for
medically unnecessary diagnostic tests and procedures.

This case was referred to the United States Attorney’s Office for the Southern District of
Texas. All three defendants pled guilty to one count Conspiracy to Commit Health Care
Fraud. They were collectively sentenced to 122 months of prison, 9 years of supervised
release, and more than $11.4 million in restitution.




                        Semiannual Report to the Congress

                    October 1, 2013 – March 31, 2014 │P a g e 21

         Office of Inspector General for the Railroad Retirement Board

          Civil Enforcement Results
    OI may pursue civil actions to recover funds fraudulently obtained by annuitants or
    claimants. These civil actions are typically prosecuted under the provisions of the False
    Claims Act. This statute provides that the government may recover up to treble
    damages as well as a $5,500 to $11,000 penalty for each false claim submitted.

    During this semiannual reporting period, a total of eight civil judgments were entered by
    U.S. District Courts for RRB fraud cases totaling more than $15.7 million in damages
    and penalties. 8 Some of these civil actions are pursued under the Department of
    Justice’s Affirmative Civil Enforcement program which provides an efficient and
    effective means to address fraud against the RRB’s programs including the
    unemployment-sickness insurance program and the disability program.




8 The total amount of damages and penalties listed reflects fraud amounts related to programs administered exclusively
by the RRB and fraud amounts from other Federal programs such as Medicare or Social Security which were included in
the disposition resulting from the investigation.



                               Semiannual Report to the Congress

                           October 1, 2013 – March 31, 2014 │Pa g e 22

      Office of Inspector General for the Railroad Retirement Board

      Hotline Contacts
Our office’s hotline provides an open line of communication for individuals to report
suspected criminal activity and mismanagement/waste of RRB funds. During this
reporting period, our hotline received 295 contacts in the following manner: 92% by
telephone, 4% by email, and 4% by mail. The following chart summarizes the
disposition of hotline contacts received.




                      Referred to the
                          Office of
                       Investigations                      Referred to
                                                             Another
                                                            Agency or
                                        54                  Company

                                                  99


                Hang Ups or
                 Insufficient
                                         142
               Information to
                  Make an
                Appropriate
                   Referral




                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │P a g e 23

          Office of Inspector General for the Railroad Retirement Board

           OTHER OVERSIGHT ACTIVITIES

           Seven–Day Letter to Congress
Section 5(d) of the Inspector General Act of 1978, as amended, requires an Inspector
General to immediately report to the agency head “particularly serious or flagrant
problems, abuses, or deficiencies relating to the administration of programs and
operations of [the agency].” 9 This section also requires the agency head to transmit the
Inspector General’s concerns, along with the agency head’s comments, to Congress
within seven calendar days.

On February 10, 2014, under the cited statutory provision, the Inspector General alerted
the Chairman of the Board to particularly serious or flagrant deficiencies in the
administration of the RRB’s occupational disability program.


           American Recovery and Reinvestment Act of 2009
During this semiannual period, we continued our efforts to aide in a transparent
American Recovery and Reinvestment Act process by preparing progress reports in
formats developed by the Recovery Accountability and Transparency Board. These
reports are published on the Recovery.gov website and are also available on the RRB’s
Recovery Act Information webpage.

Since the enactment of the American Recovery and Reinvestment Act of 2009 and
various other benefit extending legislation, OI has seen a substantial increase of
UI fraud referrals. In fact, almost 89% of OI’s current UI fraud cases involve extended
UI benefits.

           OPERATIONAL ISSUES
The following operational issue impacts the OIG’s ability to effectively carry out its
oversight role. This issue would have to be remedied with legislative change.




9   5 U.S.C. App. 3, § 5(d).

                                   Semiannual Report to the Congress

                               October 1, 2013 – March 31, 2014 │Pa g e 24

           Office of Inspector General for the Railroad Retirement Board

           National Railroad Retirement Investment Trust
The NRRIT is a tax-exempt entity independent of the Federal government which was
established by the Railroad Retirement and Survivors’ Improvement Act of 2001
(RRSIA) to manage and invest railroad retirement assets. 10 RRSIA requires that the
NRRIT report to the RRB but does not provide the OIG with oversight authority to
conduct audits and investigations of the NRRIT. We have; however, monitored the
NRRIT since 2001 and have continually expressed concerns regarding lack of
meaningful oversight. Despite these concerns and questionable long-term trust fund
solvency, the RRB continues to maintain a passive relationship with the NRRIT. A lack
of NRRIT investment fund management accountability, transparency, and stringent
financial oversight can be precursors to fraud, waste, or abuse. Yet, the NRRIT fund,
which supports the railroad retirement program, continues to remain outside the purview
of those appointed to protect the interests of the program’s beneficiaries and tax-paying
public. To ensure the integrity, economy, and long-term viability of the NRRIT, RRB
management must establish performance audit requirements that will strengthen
administrative and financial oversight and ensure fund transparency.

Additionally, as previously discussed on page 5, the OIG is not able to comply with the
new AICPA auditing standards (section 600) and are compelled to disclaim on the
RRB’s financial statements beginning this year and in future years until legislative
changes are made regarding the relationship between the OIG, the NRRIT, and its
auditors.

           LEGISLATIVE & REGULATORY REVIEW
 The Inspector General Act of 1978, as amended, requires the Inspector General to
 review existing and proposed legislation and regulations relating to the programs and
 operations of the agency. During this reporting period, the Inspector General issued a
 seven-day letter to Congress which stated, in pertinent part, that if the RRB’s
 three-member Board is unwilling or unable to effectuate real and meaningful change in
 the RRB’s disability program, then legislation should be passed to either:

       •   eliminate the RRB’s occupational disability program; or
       •   to make the occupational disability program a temporary benefit program.



10   As of February 28, 2014, the RRB’s investments in the NRRIT were valued at approximately $26 billion.



                                Semiannual Report to the Congress

                            October 1, 2013 – March 31, 2014 │P a g e 25

    APPENDICES

                                                                   Page
Appendix Title
                                                                    No.
   A      Office of Inspector General Reports and Other Publicly    27
          Available Papers Issued
   B      Audit Reports with Questioned Costs or with               28
          Recommendations that Funds be Put to Better Use
   C      Report on Receivables, Waivers, and Recoveries            29
   D      Significant Matters                                       31
   E      Peer Reviews                                              33
   F      Reports Prepared by Management                            34
   G      Reporting Requirements                                    41
   H      Acronyms                                                  42
   I      Legal References                                          43




                  Semiannual Report to the Congress

              October 1, 2013 – March 31, 2014 │Pa g e 26

      Appendix A – Office of Inspector General Reports and Other
      Publicly Available Papers Issued
       •	 Report on the Railroad Retirement Board’s Fiscal Year 2013 Financial Statements,
          December 16, 2013

       •	 Fiscal Year 2013 Financial Statement Audit Letter to Management, 

          February 20, 2014


       •	 Fiscal Year 2013 Audit of Information Security at the Railroad Retirement Board,
          March 4, 2014

       •	 Audit of Railroad Retirement Act Dual Spouse Annuity Adjustments, March 20, 2014

       •	 Audit of the Railroad Retirement Board’s Fiscal Year 2013 Compliance with the
          Improper Payments Elimination and Recovery Act of 2010, March 28, 2014

All publicly available audit reports and papers are available on our website at www.rrb.gov/oig.




                           Semiannual Report to the Congress

                       October 1, 2013 – March 31, 2014 │P a g e 27

      Appendix B – Audit Reports with Questioned Costs or
      with Recommendations That Funds be Put to Better Use


                                                Audit Reports
                                                                 Amount of        Amount of
                                                    with
                                                                 Questioned      Unsupported
                                                 Questioned
                                                                   Costs            Costs
                                                   Costs
A. For which no management decision had
been made by October 1, 2013
                                                      1           $3.8 million    $3.8 million
B. Which were issued from October 1, 2013
through March 31, 2014
                                                      1           $1.8 million    $1.8 million
Subtotal (A + B)                                      2           $5.6 million    $5.6 million
C. For which a management decision was
made between October 1, 2013 through                  1           $1.8 million    $1.8 million
March 31, 2014
    (i) dollar value of disallowed costs              0                0               0
    (ii) dollar value of costs not disallowed         1           $1.8 million    $1.8 million
D. For which no management decision had
been made by March 31, 2014
                                                      1           $3.8 million    $3.8 million
E. Report for which no management
decision was made within six months of                1           $3.8 million    $3.8 million
issuance




                                                           Audit Reports With
                                                           Recommendations
                                                                                 Dollar Value
                                                          that Funds Be Put to
                                                               Better Use
A. For which no management decision had been made
by October 1, 2013
                                                                   0                  0
B. Which were issued from October 1, 2013 through
March 31, 2014
                                                                   1              $866,000
C. Subtotal (A + B)                                                1              $866,000
     (i) dollar value of recommendations agreed to by
     management
                                                                   1              $866,000
     (ii) dollar value of recommendations not agreed to
     by management
                                                                   0                  0
D. For which no management decision had been made
by March 31, 2014
                                                                   0                  0
E. Report for which no management decision was made
within six months of issuance
                                                                   0                  0




                           Semiannual Report to the Congress

                       October 1, 2013 – March 31, 2014 │Pa g e 28

      Appendix C – Report on Receivables, Waivers, and
      Recoveries
The FY 1999 appropriations language for the OIG requires the reporting of additional
information concerning actual collections, offsets, and funds put to better use achieved
as a result of the OIG’s activities.

                           Office of Investigations

                           Recoveries realized by the RRB
                            resulting from court-ordered
                            restitution and civil damages
                                                   Amount
                           Fiscal Year
                                                  Recovered
                               1999            $ 855,655
                               2000            $1,038,134
                               2001            $ 990,356
                               2002            $ 785,843
                               2003            $ 947,876
                               2004            $ 646,273
                               2005            $ 844,183
                               2006            $1,281,680
                               2007            $1,347,049
                               2008            $1,389,489
                               2009            $1,097,227
                               2010            $1,118,256
                               2011            $2,293,530
                               2012            $1,417,125
                               2013            $1,922,166
                        October 1, 2013 –
                                               $ 453,084
                         March 31, 2014




                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │P a g e 29

                                               Office of Audit


                         Funds to be          Funds
                                                              Receivables                    Recoveries
              Report     put to better       Agreed by
                                                              Established         Waivers     to Date 11
                              use           Management
                99-03           $50,850             $50,850             $50,850    $50,490          $360
                99-14           $83,000             $83,000             $34,423         $0       $30,584
                99-16      $48,000,000         $48,000,000                  $0          $0   $22,500,000
                99-17      $11,000,000         $11,000,000                  $0          $0    $1,604,545
                00-16         $235,000            $235,000               $0             $0      $253,846
                03-06         $306,129                 N/A               $0             $0      $306,129
                04-06         $821,000            $821,000         $604,429         $5,564      $629,688
                04-10         $400,000            $400,000                  $0          $0      $761,151
                05-03       $1,800,000          $1,800,000       $4,476,192 $339,244          $2,849,068
                05-06           $10,000             $10,000                 $0          $0       $42,915
                05-07       $1,070,000          $1,070,000              $49,943         $0       $95,376
                05-10       $2,600,000          $2,600,000
                                                                                  $311,000
                06-04         $257,000            $257,000
                06-05            $2,100              $2,100                 $0          $0            $0
                06-06         $200,000            $200,000              $29,669         $0       $26,148
                09-02         $600,000            $600,000                $320          $0    $1,700,983
                10-09       $3,355,408          $3,355,408                  $0          $0    $3,355,408
                10-13         $212,038              $92,412                 $0          $0       $18,614
                12-03            $3,483              $3,483                 $0          $0        $3,483
                13-03         $112,600            $112,600                  $0          $0            $0
                13-08            $2,440              $2,440                 $0      $2,440            $0
                13-09          $9,927 12             $9,927              $4,547         $0        $8,879
                14-04         $866,000            $866,000                  $0          $0            $0




11   Both overpayments and underpayments are included in this column.
12   Amount includes additional monies reported by the RRB.

                                 Semiannual Report to the Congress
                             October 1, 2013 – March 31, 2014 │Pa g e 30
         Appendix D – Significant Matters
The OIG has identified deficiencies in controls over budgetary reporting and information
security as significant matters. A summary of the issues and related recommendations
for corrective action follow.

                                         Budgetary Reporting
In FY 2013, we downgraded this previous material weakness to a significant deficiency
due to the training conducted for various Bureau of Fiscal Operations personnel in June
2013 and the significant improvement in the preparation of the statement of budgetary
resources. Although errors were found, they did not exceed our materiality threshold.
Further corrective action needs to be taken regarding an improved review process to
ensure the accuracy of calculations, consistency in recorded amounts, and
effectiveness of controls.

 Issue Area                                          Date of Report                Report and Recommendations
 Budgetary Reporting                                 January 31, 2012              Report OIG 12-04, 2



                                         Information Security
Risk Management Program
The OIG previously evaluated information security pursuant to the provisions of FISMA
and concluded that the RRB has not yet achieved an effective FISMA-compliant
security program. Although agency managers are working to strengthen controls,
management action in response to the following OIG recommendations had either not
been completed as of the end of the current semiannual reporting period or had not
been in place long enough to permit evaluation.

 Issue Area                                            Date of Report             Report and Recommendations 13
 Internal Control Over the Risk
 Management Program 14                                July 18, 2005               Report OIG 05-08, #4
                                                      September 30, 2008          Report OIG 08-05, #2 & 7
                                                      November 12, 2009           Report OIG 10-01, #1 & 5
                                                      September 28, 2011          Report OIG 11-10, #1 – 3
                                                      September 28, 2011          Report OIG 11-11, #1 – 3
                                                      September 29, 2011          Report OIG 11-12, #1 – 4
                                                      January 5, 2012             Report OIG 12-02, #2 & 5
                                                      September 21, 2012          Report OIG 12-08, #2 – 4




13 Online report abstracts summarize the results of the noted evaluations. The full reports include information protected

from disclosure and have been designated for limited distribution pursuant to 5 U.S.C. § 552.

14 Previously known as Certification and Accreditation.




                               Semiannual Report to the Congress

                           October 1, 2013 – March 31, 2014 │P a g e 31

Configuration Management
The OIG also identified a material weakness regarding information technology security
application services because the RRB continues to use an unsupported server for some
major applications. Agency management has ensured that some of the affected servers
were replaced and others have been moved to the agency’s virtual environment, but
action to complete full decommission of all affected servers continues. Uncertainties
exist in determining the timeframe in which this situation will be corrected, as well as the
necessary resources for completion.

 Issue Area                                            Date of Report             Report and Recommendations 15
 Security Configuration Management                    January 5, 2012             Report OIG 12-02, #7 & 8




15 An online report abstract summarizes the results of this evaluation. The full report includes information protected from

disclosure and has been designated for limited distribution pursuant to 5 U.S.C. § 552.

                                Semiannual Report to the Congress

                            October 1, 2013 – March 31, 2014 │Pa g e 32

      Appendix E – Peer Reviews
Section 989C of the Dodd-Frank Wall Street Reform and Consumer Protection Act
requires Inspectors General to provide information regarding peer reviews in their
Semiannual Reports to the Congress.

      Office of Audit
In general, Federal audit organizations may receive a peer review rating of pass, pass
with deficiencies, or fail.

The results of OA’s most recent peer review (which was for the year ended
March 31, 2012) were transmitted on November 21, 2012. OA received a peer review
rating of pass. This peer review did not contain any recommendations.
OA did not conduct any peer reviews during this semiannual reporting period.

      Office of Investigations
During the peer review process, Federal OIG investigative organizations, in general,
may receive a peer review rating of compliant or not compliant with the quality
standards established by the Council of the Inspectors General on Integrity and
Efficiency and the Attorney General’s Guidelines for Inspectors General with Law
Enforcement Authority based on Section 6(e) of the Inspector General Act, as
amended.
The results of OI’s most recent peer review (which was for the FY ended
September 30, 2011) were transmitted on February 9, 2012. OI received a peer review
rating of compliant. This peer review did not contain any recommendations.
During this semiannual reporting period, OI completed their peer review of the Office of
Inspector General for the Federal Reserve Board and concluded that they were
complaint with the applicable standards.




                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │P a g e 33

       Appendix F – Reports Prepared by Management


                Final Action on Audits with Disallowed Costs
For the 6-Month Period Ending                             Number of      Disallowed
March 31, 2014                                           Audit Reports     Costs

A.	   Audit reports, with management decisions, on
      which final action had not been taken at the            0             $0
      beginning of the period.
B.	   Audit reports on which management decisions
      were made during the period.                            0             $0

C.	   Total audit reports pending final action during
      the period. (A + B)                                     0             $0

D.	   Audit reports on which final action was taken
      during the period.

      1.	   Recoveries

            (a) Collections and offsets	                      0             $0

            (b) Property	                                     0             $0

            (c) Other	                                        0             $0

      2.    Recovery Waived	                                  0             $0

      3.    Total of 1 and 2	                                 0             $0

E.	   Audit reports needing final action at the end of
      the period (C - D.3).                                    0            $0




                          Semiannual Report to the Congress

                      October 1, 2013 – March 31, 2014 │Pa g e 34

                 Management Report on Final Action on Audits with
                 Recommendations to Put Funds to Better Use for the
                 6-Month Period Ending March 31, 2014
                                                                    Number of                 Funds to be Put
                                                                   Audit Reports               to Better Use
A.	     Audit reports, with management decisions, on
        which final action had not been taken at the
        beginning of the period.                                         4	                     $894,512*

B.	     Audit reports on which management decisions
        were made during the period.                                     0                           $0

C.	     Total audit reports pending final action during
        the period. (A - B)                                              4                       $894,512

D.	     Audit reports on which final action was taken
        during the period.

        1.	    Value of recommendations implemented 

               (completed)
                                              0	                          $0

        2.	    Value of recommendations that

               management concluded should not or

               could not be implemented (completed)
                     0	                          $0

        3.     Total of 1 and 2	                                         0                           $0

E.	     Audit reports needing final action at the end of
        the period                                                       4                       $894,512




      * Comprised of the following amounts: $2,100 from Audit Report 06-05, Review of Compliance with
      Provisions of the Railroad Retirement Act Governing the Initial Award of Benefits; $200,000 from Audit
      Report 06-06, Review of the Termination and Suspension of Benefits Paid Under the Railroad Retirement
      Act; $600,000 from Audit Report 09-02, Fiscal Year 2008 Financial Statement Audit Letter to
      Management; and $92,412 from 10-13 Railroad Medicare Services Billed with Dates of Service after
      Beneficiaries’ Dates of Death.




                                Semiannual Report to the Congress

                            October 1, 2013 – March 31, 2014 │P a g e 35

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2014

                                                    Disallowed Funds to be Put
Report                                    Date        Costs     to Better Use        Reason Action Not Completed

Review of Information Security at the    02/5/02      NONE         NONE	         Information Services has closed 26 out
Railroad Retirement Board (02-04)	                                               of 28 recommendations. Servers are
                                                                                 scheduled to be replaced once
                                                                                 remaining project on server is
                                                                                 completed.

Review of Internal Control Over the      05/5/05      NONE         NONE          The Chief Actuary is reviewing their
Actuarial Projection Process (05-04)                                             work plan prior to submission to OIG.

Review of Access Controls in the End-    07/18/05     NONE         NONE          Information Services has closed 14 of
User Computing General Support                                                   15 recommendations in this
System (05-08)                                                                   confidential report. Documentation is
                                                                                 currently being reviewed and finalized
                                                                                 before submission to OIG.

Fiscal Year 2005 Evaluation of           09/28/05     NONE         NONE          Bureau of Information Services is
Information Security at the Railroad                                             working with outside contractor. Target
Retirement Board (05-11)                                                         for completion is FY2014.


Review of Compliance with the            04/12/06     NONE         $2,100	       Programs staff closed four of the five
Provisions of the Railroad Retirement                                            recommendations. Last
Act Governing the Initial Award of                                               recommendation on hold due to
Benefits (06-05)                                                                 resources diverted to higher priority
                                                                                 project.

Review of the Termination and            05/24/06     NONE        $200,000	      Analysis completed and draft report
Suspension of Benefits Paid Under the                                            submitted for review prior to request for
Railroad Retirement Act (06-06)                                                  IT changes. Coding work continues.

Review of Incident Handling and          08/24/06     NONE         NONE	         Contract option to draft incident
Reporting at the Railroad Retirement                                             response plan was approved however
Board (06-09)                                                                    staff was reassigned to another project.
                                                                                 Training will be conducted as required
                                                                                 in the CSIRP.


Audit of the DAISY/CHICO Component       03/9/07      NONE         NONE          Recent IT changes are pending review
Application of the RRA Benefit Payment                                           as resources were diverted to higher
Major Application System (07-02)                                                 priority projects.




                                      Semiannual Report to the Congress

                                  October 1, 2013 – March 31, 2014 │Pa g e 36

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2014

                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use       Reason Action Not Completed
Evaluation of the Railroad Retirement      07/30/07     NONE          NONE       New CPO was appointed. Additional
Board’s Privacy Program (07-06)                                                  funding and resources are needed. Of
                                                                                 the 16 recommendations, 15 have
                                                                                 been closed. Work continues on last
                                                                                 recommendation.

Audit of Federal Income Taxes Withheld     07/30/07     NONE         NONE        Coordination is required with another
from Railroad Retirement Annuities                                               org. Five of the six recommendations
(07-07)                                                                          have been closed, with the remaining
                                                                                 one targeted for completion in FY14.

Fiscal Year 2007 Evaluation of             09/27/07     NONE         NONE        W ork continues and is targeted for
Information Security at the Railroad                                             completion in FY14.
Retirement Board (07-08)

Audit of Controls to Safeguard Sensitive   09/27/07     NONE         NONE        W ork and coordination continues along
Personally Identifiable Information                                              with outside contractor. Target for
(07-09)                                                                          completion is FY14.

Fiscal Year 2007 Financial Statement       03/6/08      NONE         NONE        Bureau of Fiscal Operations
Audit Letter to Management (08-01)                                               implemented enhanced controls in
                                                                                 FY10. FMIS implemented changes in
                                                                                 financial statement preparation. New
                                                                                 procedures will be developed in FY14.

Evaluation of Information Security for the 09/26/08     NONE         NONE        W ork continues on work plans, policy
RRB’s Financial Interchange Major                                                and/or procedures.
Application – Abstract (08-03)

Fiscal Year 2008 Evaluation of             09/26/08     NONE         NONE        Documentation is currently being
Information Security at the RRB (08-05)                                          reviewed and finalized for submission
                                                                                 to OIG.

Fiscal Year 2008 Financial Statement       03/24/09     NONE        $600,000     Review and updating of
Audit Letter to Management (09-02)                                               documentations along with case
                                                                                 reviews are currently being performed
                                                                                 on remaining recommendations. Work
                                                                                 continues.




                                     Semiannual Report to the Congress

                                 October 1, 2013 – March 31, 2014 │P a g e 37

Management Statement on Resolved Audit Reports Over 12 Months
      Old with Final Action Pending as of March 31, 2014
                                                      Disallowed Funds to be Put
Report                                       Date       Costs     to Better Use       Reason Action Not Completed
Audit of the Railroad Medicare Integrity   09/25/09     NONE          NONE       Additional documentations were
Program at Palmetto Government                                                   requested which requires coordination
Benefits Administrators (09-04)                                                  with outside agency.


Audit of the General and Application       09/30/09     NONE          NONE       Work continues with target completion
Controls in the Financial Management                                             in FY14.
Major Application System (09-05)


Fiscal Year 2009 Evaluation of             11/12/09     NONE          NONE       Documentation is currently being
Information Security (10-01)                                                     reviewed and finalized for submission
                                                                                 to OIG. Target completion in FY14.


Review of Statistical Methods Employed     05/04/10     NONE          NONE       The Bureau of Actuary (BOA) is
in the Financial Interchange                                                     reviewing documentation and will take
Determination (10-06m)                                                           the necessary action(s) and coordinate
                                                                                 with the Bureau of Information Services
                                                                                 for programming services.

Review of the Technical Approach and       05/19/10     NONE          NONE       The Bureau of Actuary is reviewing
Methodology Used to Determine the                                                documentation and will take the
Annual Financial Interchange Amount                                              necessary action(s).
for the Year Ended September 30, 2008
(10-07m)


Review of the Accuracy of the Financial    05/25/10     NONE          NONE       The Bureau of Actuary is reviewing
Interchange as Executed for the Year                                             documentation and will take the
Ended September 30, 2008 (10-10m)                                                necessary action(s).

Audit of Unilateral Disability Freeze      08/12/10     NONE          NONE       Additional resource is required for 1
Determinations (10-11)                                                           recommendation and the remaining 2
                                                                                 are awaiting Board approval. Target
                                                                                 completion in FY14.

Audit of the Account Benefits Ratio        09/29/10     NONE          NONE       The Bureau of Actuary reviewed and
(10-12)                                                                          will take the necessary action(s).




                                       Semiannual Report to the Congress

                                   October 1, 2013 – March 31, 2014 │Pa g e 38

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2014

                                                       Disallowed Funds to be Put
Report                                       Date        Costs     to Better Use        Reason Action Not Completed

Railroad Medicare Services Billed with      09/30/10     NONE        $92,412        Coordination continues with outside
Dates of Service after the Beneficiaries’                                           organization.
Dates of Death (10-13)

Fiscal Year 2010 Evaluation of              11/05/10     NONE         NONE          Additional documentation was
Information Security at the Railroad                                                requested by OIG on last
Retirement Board - Abstract (11-01)                                                 recommendation, and replacement
                                                                                    FTE is needed.

Audit of Controls Over Railroad             04/20/11     NONE         NONE          Coordination is required with outside
Medicare Contract Costs (11-06)                                                     organization.

Audit of Railroad Retirement Act            06/29/11     NONE         NONE          Programs’ is working with Bureau of
Benefits Overpayments and Internal                                                  Information Services pending
Controls (11-07)                                                                    implementation of systems changes.

Review of the Railroad Retirement           07/07/11     NONE         NONE          Of the 12 recommendations, 2 required
Board’s Security Patch Management                                                   additional documentations, 5 are
Process – Abstract (11-08)                                                          awaiting new FTE replacement from
                                                                                    contractor, work continues on 1 and 4
                                                                                    have been closed.

Inspection of the Railroad Retirement       09/28/11     NONE         NONE          Documentation is currently being
Board’s Agency Enterprise General                                                   reviewed and finalized for submission
Information Support System                                                          to OIG.
Certification and Accreditation –
Abstract (11-10)

Inspection of the Railroad Retirement       09/28/11     NONE         NONE          Contract has been awarded and work
Board’s Financial Management                                                        is in progress with outside contractor.
System’s Continuous Monitoring
Program – Abstract (11-11)

Evaluation of the Railroad Retirement       09/29/11     NONE         NONE          Work plans, policy, and/or procedures
Board’s Benefit and Payment                                                         are currently pending, in addition
Operations System Continuous                                                        coordination is required with outside
Monitoring – Abstract (11-12)                                                       contractor.




                                      Semiannual Report to the Congress

                                  October 1, 2013 – March 31, 2014 │P a g e 39

Management Statement on Resolved Audit Reports Over 12 Months

      Old with Final Action Pending as of March 31, 2014

                                                   Disallowed Funds to be Put
Report                                    Date       Costs     to Better Use      Reason Action Not Completed
Fiscal Year 2011 Evaluation of          01/05/12     NONE          NONE       Coordination is required with outside
Information Security at the Railroad                                          contractor. Procedures are being
Retirement Board - Abstract (12-02)                                           updated.

Fiscal Year 2011 Financial Statement    02/31/12     NONE          NONE        Policies and procedures are being
Audit Letter to Management (12-04)                                             reviewed on remaining
                                                                               recommendations.

Audit of the Application Express        03/30/12     NONE          NONE        Analysis is deferred due to work
(APPLE) System’s Date of Death                                                 committed to other priority project.
Reliability (12-06)

Inspection of the Railroad Retirement   07/27/12     NONE          NONE        Preliminary work to define the scope is
Board’s Representative Payee                                                   in progress with actual work and in
Monitoring (12-07)                                                             depth analysis to follow after higher
                                                                               priority projects has been completed.

Inspection of the Railroad Retirement   09/21/12     NONE          NONE        The Bureau of Actuary is currently
Board’s Financial Interchange System                                           reviewing and will take the necessary
Continuous Monitoring (12-08)                                                  action(s).

Audit of the Railroad Medicare Part B   09/26/12     NONE          NONE        W ork is in progress. IPI worksheet has
Eligibility and Premium Collection                                             been completed and is pending IRMC
Process (12-10)                                                                approval. Training will be conducted.


Audit of Job Duty Verification          01/15/13     NONE          NONE        Currently reviewing policies and
Procedures for Long Island Rail Road                                           procedures.
Occupational Disability Applicants
(13-02)

Fiscal Year 2012 Financial Statement    01/28/13     NONE          NONE        4 of the 5 recommendations have been
Audit Letter to Management (13-03)                                             closed. Work continues on last
                                                                               recommendation.

Fiscal Year 2012 Audit of Information   02/12/13     NONE          NONE        Currently reviewing policies and
Security at the Railroad Retirement                                            procedures in addition, documentation
Board (13-04)                                                                  is being reviewed and finalized for 3
                                                                               recommendations, while 6 of the 19
                                                                               recommendations have been closed.




                                     Semiannual Report to the Congress

                                 October 1, 2013 – March 31, 2014 │Pa g e 40

     Appendix G – Reporting Requirements

Act Reference Inspector General Reporting Requirements                    Page(s)
Section 4(a) (2)	 Review of Legislation and Regulations                       25
Section 5(a) (1)	 Significant Problems, Abuses, and Deficiencies        24, 31-32
Section 5(a) (2)	 Recommendations With Respect to Significant           25, 31-32
                   Problems, Abuses, and Deficiencies
Section 5(a) (3)	 Prior Significant Recommendations Not Yet                31 - 32
                   Implemented
Section 5(a) (4)	 Matters Referred to Prosecutive Authorities                4, 15
Section 5(a) (5)	 Instances Where Information Was Refused                   None
Section 5(a) (6)	 List of Audit Reports                                         27
Section 5(a) (7)	 Summary of Each Significant Report                        5 - 11
Section 5(a) (8)	 Statistical Tables on Management Decisions on                 28
                   Questioned Costs
Section 5(a) (9)	 Statistical Tables on Management Decisions on                28
                   Recommendations That Funds be Put to Better
                   Use
Section 5(a) (10)	 Summary of Each Audit Report Over 6 Months                  12
                   Old for Which No Management Decision Has
                   Been Made
Section 5(a) (11)	 Description and Explanation for Any Significant          None
                   Revised Management Decision
Section 5(a) (12)	 Information on Any Significant Management                24-25
                   Decisions With Which the Inspector General
                   Disagrees



Act Reference Management Reporting Requirements                           Page(s)
Section 5(b) (1)	 Management Comments                                Management’s
                                                                       Transmittal
Section 5(b) (2)	 Statistical Table on Final Action on                         34
                  Disallowed Costs
Section 5(b) (3)	 Statistical Table on Final Action to Put Funds               35
                  to Better Use
Section 5(b) (4)	 Statement on Audit Reports With Final                    36 - 40
                  Action Pending




                      Semiannual Report to the Congress

                  October 1, 2013 – March 31, 2014 │P a g e 41

      Appendix H – Acronyms

Acronym     Explanation


AICPA       American Institute of Certified Public Accountants
FISMA       Federal Information Security Management Act of 2002
FY          Fiscal Year
IPERA       Improper Payments Elimination and Recovery Act of
            2010
LIRR        Long Island Rail Road
NRRIT       National Railroad Retirement Investment Trust
OA          Office of Inspector General for the Railroad
            Retirement Board – Office of Audit
OI          Office of Inspector General for the Railroad
            Retirement Board – Office of Investigations
OIG         Office of Inspector General for the Railroad
            Retirement Board
OMB         Office of Management and Budget
RRA         Railroad Retirement Act
RRB         Railroad Retirement Board
RRSIA       Railroad Retirement and Survivors’ Improvement Act
            of 2001
RUIA        Railroad Unemployment Insurance Act
SI          Sickness Insurance
UI          Unemployment Insurance




                   Semiannual Report to the Congress

               October 1, 2013 – March 31, 2014 │Pa g e 42

      Appendix I – Legal References

Federal:
American Recovery and Reinvestment Act of 2009 – P.L. 111–5
Dodd-Frank Wall Street Reform and Consumer Protection Act – P.L. 111-203
Conspiracy to Commit Health Care Fraud – 18 U.S.C. § 1349
False Claims Act – 31 U.S.C. §§ 3729 – 3733
Federal Information Security Management Act of 2002 – 44 U.S.C. § 3531, et. seq.
Improper Payments Information Act of 2002 – P.L. 107-300
Improper Payments Elimination and Recovery Act of 2010 – P.L. 111-204
Inspector General Act of 1978, as amended – 5 U.S.C. App. 3
Railroad Retirement Act – 45 U.S.C. § 231, et. seq.
Railroad Unemployment Insurance Act – 45 U.S.C. § 351, et. seq.
Railroad Retirement and Survivors’ Improvement Act of 2001 – P.L 107–90
Railroad Retirement Solvency Act of 1983 – P.L. 98–76
Report Consolidated Act of 2000 – P.L. 106-531
Social Security Act – 42 U.S.C. § 301, et seq.
Theft of Public Money/Government Funds/Government Property – 18 U.S.C. § 641

State:
Georgia Code
Forgery in the First Degree – O.C.G.A. 16-9-1 (2010)

Exploitation of a Disabled Adult – O.C.G.A. 30-5-8 (2010)

Identity Theft – O.C.G.A. 16-9-121 (2010)

Financial Transaction Card Fraud – O.C.G.A. 16-9-33 (2010)

Ohio Code
Workers’ Compensation Fraud – Ohio Revised Code § 2913.48 (A) (1) & (B)




                       Semiannual Report to the Congress

                   October 1, 2013 – March 31, 2014 │P a g e 43

                        REPORT


       FRAUD, WASTE, AND ABUSE





               Call the OIG Hotline:

                      1-800-772-4258


              Email: hotline@oig.rrb.gov

 The OIG cannot ensure confidentiality to persons who provide
information via email. Do not send information by email that you
                do not want a third party to read.

            Write: RRB, OIG Hotline Officer

                   844 N. Rush Street

             Chicago, Illinois 60611-2092

